       DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                            Washington, D.C. 20201




March 22, 2010

TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /Lori S. Pilcher/
               Assistant Inspector for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       National Institutes of Health: National Center for Research Resources—Internal
               Control Review of the Process for Awarding Extramural Construction Grants
               Under the American Recovery and Reinvestment Act (A-02-09-02011)


The attached final report provides the results of our review of internal controls over the National
Institutes of Health (NIH), National Center for Research Resources (NCRR) process for
awarding extramural construction grants funded under the American Recovery and Reinvestment
Act of 2009, P.L. No. 111-5 (Recovery Act). This review was part of the Office of Inspector
General’s assessment of whether the Department of Health and Human Services is using
Recovery Act funds in accordance with legal and administrative requirements and is meeting the
accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

NIH is functionally organized into 27 institutes and centers. Within NIH, NCRR provides
laboratory scientists and clinical researchers with the environments and tools needed to
understand, detect, treat, and prevent a wide range of diseases. The Recovery Act provides $1
billion in funding to NCRR to help stimulate the economy via the extramural construction,
renovation, or repair of biomedical or behavioral research facilities.
Page 2 – Francis S. Collins, M.D., Ph.D.


Our objective was to assess the internal controls NCRR has in place for awarding extramural
construction grants funded under the Recovery Act and to determine whether the internal
controls have been suitably designed.

The internal controls for awarding Recovery Act funds for extramural construction grants, as
described by management, are suitably designed to provide reasonable assurance that the
specified control objectives would be achieved if the described internal controls were complied
with satisfactorily and applied as designed. However, we did not perform procedures to
determine the operating effectiveness of these internal controls. Accordingly, we express no
opinion on the operating effectiveness of any aspects of NCRR’s internal controls for awarding
Recovery Act extramural construction grant funds, individually or in the aggregate.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-09-02011 in all correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


NATIONAL INSTITUTES OF HEALTH:
 NATIONAL CENTER FOR RESEARCH
 RESOURCES–INTERNAL CONTROL
   REVIEW OF THE PROCESS FOR
     AWARDING EXTRAMURAL
CONSTRUCTION GRANTS UNDER THE
    AMERICAN RECOVERY AND
       REINVESTMENT ACT



                        Daniel R. Levinson
                         Inspector General

                           March 2010
                          A-02-09-02011
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services (HHS) and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and required that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Center for Research Resources

The HHS, National Institutes of Health (NIH) is the steward of medical and behavioral research
for the nation. NIH is functionally organized into 27 institutes and centers. Within NIH, the
National Center for Research Resources (NCRR) provides laboratory scientists and clinical
researchers with the environments and tools they need to understand, detect, treat, and prevent a
wide range of diseases. NCRR provides funding to eligible recipients through the issuance of
discretionary grant awards.

The Recovery Act provided $1 billion in funding to NCRR to help stimulate the economy via
extramural construction, renovation, or repair of biomedical or behavioral research facilities.


                                                 i
The intended recipients are institutions of higher education as well as non-profit and regional
organizations throughout the country.

OBJECTIVE

Our objective was to assess the internal controls NCRR has in place for awarding extramural
construction grants funded under the Recovery Act and to determine whether the controls have
been suitably designed.

SUMMARY OF RESULTS

The internal controls over the grant award process used to award Recovery Act funds for
extramural construction grants, as described by NCRR management, are suitably designed to
provide reasonable assurance that the specified internal control objectives would be achieved if
the described internal controls were complied with satisfactorily and applied as designed.
However, we did not perform procedures to determine the operating effectiveness of these
internal controls. Accordingly, we express no opinion on the operating effectiveness of any
aspect of NCRR’s internal controls over the grant award process used to award Recovery Act
extramural construction grant funds, individually or in the aggregate.

This report is intended to provide a sufficient understanding of NCRR’s grant process for
awarding Recovery Act funds to grantees as it pertains to internal control objectives in the
following internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              National Center for Research Resources ........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
               Objective .........................................................................................................2
               Scope...............................................................................................................2
               Methodology ...................................................................................................2

RESULTS OF REVIEW ......................................................................................................3

          AUTHORIZATION AND APPROVAL....................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy......4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used to Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy......................................................................4
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...............................................................5
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy..........................6
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place ....................6

          ACCURACY, COMPLETENESS AND VALIDITY................................................6
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an
                Economical and Efficient Manner ...............................................................6
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Process and Approve Grant
                Applications and Related Transactions Are Efficient..................................7
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That the Agency Has Mechanisms in Place to Timely
                Award Grant and Contract Funds ................................................................7




                                                                    iii
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Only Those Grant Requests That Meet the Eligibility
            Requirements Are Approved .......................................................................7
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Are Periodically Substantiated
            and Evaluated...............................................................................................8

PHYSICAL SAFEGUARDS AND SECURITY........................................................8
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted
       Only in Accordance With Policy .................................................................8
     Internal Control Objective 2: Internal Controls Provide Reasonable
       Assurance That Valuable Assets and Information Are Safeguarded
       From Unauthorized Access or Use ..............................................................9

ERROR HANDLING .................................................................................................9
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the National Center for Research Resources
      Accurately and Promptly Classifies, Summarizes, and Reports
      Adjustments to Grant Application Information and Records ......................9

SEGREGATION OF DUTIES ...................................................................................9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual to Both Cause and
       Conceal Errors Are Reduced .......................................................................9




                                                         iv
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

          Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

          Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

          Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

          Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

          Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and required that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Center for Research Resources

The HHS, National Institutes of Health (NIH) is the steward of medical and behavioral research
for the nation. NIH is functionally organized into 27 institutes and centers. Within NIH, the
National Center for Research Resources (NCRR) provides laboratory scientists and clinical
researchers with the environments and tools they need to understand, detect, treat, and prevent a

1
    Accessed at http://www.hhs.gov/recovery/reports on October 29, 2009.


                                                          1
wide range of diseases. NCRR provides funding to eligible recipients through the issuance of
discretionary grant awards. 2

The Recovery Act provided $1 billion in funding to NCRR to help stimulate the economy via
extramural construction, renovation, or repair of biomedical or behavioral research facilities.
The intended recipients of these awards are institutions of higher education as well as non-profit
and regional organizations throughout the country.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls NCRR has in place for awarding extramural
construction grants funded under the Recovery Act and to determine whether the controls have
been suitably designed.

Scope

We assessed NCRR’s internal controls over the grants award process used to award Recovery
Act funds to construct, renovate, or repair existing non-Federal research facilities. Our
assessment was limited to determining whether existing internal controls adequately achieved the
internal control objectives for: (1) authorization; (2) accuracy, completeness, and validity;
(3) physical safeguards and security; (4) error handling; and (5) segregation of duties. We did
not perform procedures to determine the operating effectiveness of these internal controls.
Accordingly, we express no opinion on the operating effectiveness of any aspect of NCRR’s
internal controls over the grant award process used to award Recovery Act funds, individually or
in the aggregate.

We performed fieldwork at NCRR offices in Bethesda, Maryland, from May through July 2009.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of NCRR’s internal control environment, we:

       reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by the Office of Management and Budget, that NCRR must follow for awarding grants;

       reviewed NCRR’s organizational structure, including segregations of functional
        responsibilities, policy statements, operating manuals, and personnel policies; and



2
 Discretionary grants are awarded under programs that permit NCRR, in accordance with legislation, to exercise
judgment in approving the project, project period, grantee and award amount.



                                                      2
      interviewed NCRR management as well as operations, administrative, and other
       personnel responsible for developing, assuring adherence to, and applying internal
       controls.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

The internal controls over the grant award process used to award Recovery Act funds for
extramural construction grants, as described by NCRR management, are suitably designed to
provide reasonable assurance that the specified internal control objectives would be achieved if
the described internal controls were complied with satisfactorily and applied as designed.
However, we did not perform procedures to determine the operating effectiveness of these
internal controls. Accordingly, we express no opinion on the operating effectiveness of any
aspect of NCRR’s internal controls over the grant award process used to award Recovery Act
extramural construction grant funds, individually or in the aggregate.

This report is intended to provide a sufficient understanding of NCRR’s grant process for
awarding Recovery Act funds to grantees as it pertains to internal control objectives in the
following internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                               3
AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

        NCRR policy is to look for grant proposals of high scientific and technical merit that are
         relevant to public health needs and are within NCRR priorities. Applicants can find
         eligibility information in section III of each funding opportunity announcement (FOA).
         Eligibility requirements are primarily based on the experience of the applicant and the
         need of the construction or renovation.

        NCRR believes it evaluates grant applications by a process that is fair, equitable, timely,
         and bias-free. The NCRR dual peer review system 3 is mandated by statute (section 492
         of the Public Health Service Act) and Federal regulations (42 CFR part 52h).

        NCRR policy is to include the NIH Grants Policy Statement in all Notice of Awards as a
         term and condition of the award. The NIH Grants Policy Statement provides that NCRR
         grant awards are for the reimbursement of actual and allowable costs incurred and are
         subject to Federal cost principles. The cost principles are set forth in OMB Circulars
         A-21, A-87, and A-122; 45 CFR § 74 Appendix E; and 48 CFR § 31.2 and incorporated
         by reference in 45 CFR §§ 74.27 and 92.22. The cost principles address four tests to
         determine the allowability of costs: reasonableness, allocability, consistency, and
         conformance. The NIH Grants Policy Statement also includes administrative and other
         remedies the Federal Government may use if a grantee does not comply with
         requirements.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

        OMB implementation guidance for the Recovery Act requires Federal agencies to
         provide information on the funding notifications made for all award types on
         http://www.recovery.gov with a link to the agency’s Web site. The funding notifications
         stem from public announcements on the amount of funds available to entities outside of
         the Federal Government. The notifications include funds available immediately through
         formula or block grants, through the solicitation of applications or proposals for award in
         the future, or through any other public notification. Grants, contracts, loans, loan
         guarantees, cooperative agreements, and other forms of assistance are all subject to this
         reporting requirement.



3
 The dual peer review system used by NCRR has two levels of review. The first level, the initial peer review,
provides a judgment of scientific merit and technical acceptability of the line drawings and associated facilities
improvement plans. The second level assesses the quality of the initial peer review and sets program priorities.



                                                        4
           NCRR posts grant eligibility requirements and construction objectives on
            http://grants.nih.gov/recovery and http://www.grants.gov using an FOA. Each Web site
            is linked to Recovery.gov. FOAs are a new requirement and result in the submission of
            grant applications through Grants.gov. FOAs are requests for applications and are issued
            to invite grant applications in a well-defined area and stimulate activity in NIH’s
            programmatic priority areas.

           NIH and NCRR policy is to make new grantees aware of financial management system
            requirements through its “Welcome Wagon” letter posted on a NIH Office of Extramural
            Research Web site, 4 through NCRR education and outreach activities, and as part of the
            award negotiation, if applicable. The “Welcome Wagon” letter informs grantees that
            they must follow the procedures authorized in accordance with laws, regulations,
            policies, and Facilities & Administrative rate negotiations. Additionally, the “Welcome
            Wagon” letter provides Facilities & Administrative rate negotiation information.

           The NIH Office of Extramural Research Web site 5 provides a multitude of resource
            materials that educate grantees about the cost principles and other applicable regulations
            and policies governing the administration of grants. NCRR staff also provide policy
            interpretation and consultation to the grantee community.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

           NCRR’s policy is to evaluate grant applications in a fair, equitable, timely, and bias-free
            manner. The NCRR dual peer review system is mandated by statute (section 492 of the
            Public Health Service Act) and Federal regulations (42 CFR part 52h).

           As required, applications are processed through two levels of review and assigned a
            numerical ranking. Using established criteria, the initial peer review group prepares an
            evaluation and gives the application a score (or ranking). The second level of review is
            performed by an advisory council. The advisory council approves grant applications that
            meet NCRR’s goals and ranks the applications from the most meritorious to the least.
            The results of the initial peer review and the advisory council review are recorded in the
            NIH IMPAC II system. 6

           Before awarding a grant, NCRR requires NIH, Office of Grants Management staff to use
            a checklist to ensure that administrative requirements have been addressed, including

4
    Accessed at http://grants.nih.gov/grants/funding/welcomewagon.htm on January 21, 2010.

5
    Accessed at http://grants.nih.gov/grants/oer.htm on January 21, 2010.

6
 Information for Management, Planning, Analysis, and Coordination (IMPAC) is a computer database system
developed and maintained by the NIH Office of Extramural Research for information concerning extramural
programs. IMPAC II is the successor to NIH’s original IMPAC information management system.



                                                          5
       whether the grant was funded in rank order. For all new and competing continuation
       awards, Congress must be alerted at least 72 hours before the grant is awarded. The
       Grants Management Specialist, an NCRR employee, approves the Notice of Grant
       Award, which is sent to the grantee.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

      NCRR requires grantees to meet the standards and requirements for financial
       management systems set forth or referenced in 45 CFR §§ 74.21 or 92.20, as applicable.
       Requirements for grantees’ financial and administrative systems are included in the NIH
       Grants Policy Statement, which is posted on the NIH Intranet (Grants Management
       Infonet) as a resource for Grants Management staff.

      NCRR may impose corrective actions and/or include special conditions on awards or
       suspend, terminate, or withhold support. Questionnaires are posted on the Grants
       Management Infonet as a resource for Grants Management staff to use when evaluating
       the grantee’s financial and administrative systems.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

      The Authorized Organization Representative’s signature on the grant application assures
       that the applicant organization will be accountable both for the appropriate use of funds
       awarded and for the performance of the grant-supported project or other activities
       resulting from the application. The Authorized Organization Representative is also
       responsible to NCRR for ensuring that the organization complies with the terms and
       conditions of individual awards and organization-wide requirements, such as those
       concerning financial management and property management.

      A grantee acknowledges and accepts an NCRR award and its associated terms and
       conditions by returning the signed Notice of Award to NCRR. Once the award is
       accepted by the grantee, the terms and conditions of the Notice of Award are binding.

ACCURACY, COMPLETENESS AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

      NCRR requires the advisory council to review applications not only for appropriate initial
       peer review recommendations but also for relevance to NCRR’s programs, priorities, and
       funding. The advisory council may concur with the results of the initial peer review and
       approve the grant award or return the grant application to the initial peer review group for
       further review.


                                              6
Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used to Process and Approve Grant Applications and Related Transactions
Are Efficient

       NCRR has begun replacing paper grant applications with electronic applications and has
        begun the transition for requiring electronic submission of grant applications through
        Grants.gov.

       NCRR requires that submitted applications undergo checks at Grants.gov and at NCRR.
        The Grants.gov checks ensure that no viruses are attached to the application and the Date
        Universal Numbering System (DUNS) number is correct. 7 At NCRR, the application is
        checked against an application evaluation checklist. If there are no errors, NCRR
        assembles the entire application in the Electronic Research Administration (eRA)
        Commons.

       NCRR provides the submitting organization’s business official (the signing official) and
        the principal investigator 2 days to view the application before it is submitted to the NIH,
        Center for Scientific Review’s Division of Receipt and Referral for processing.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place To Timely Award Grant and Contract Funds

       NCRR intends to use some of its Recovery Act funds for grant applications that were
        approved in fiscal years 2004 and 2005 but not funded. Recovery Act extramural
        construction grants must be awarded in short timeframes and obligated within 5 years.
        NCRR officials said they will allocate additional staff as needed to address the increased
        number of grant applications.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Requests That Meet the Eligibility Requirements Are Approved

       NCRR policy requires that Office of Grants Management staff review the HHS National
        External Audit Resources alert listing and the U.S. General Services Administration’s
        Listing of Parties Excluded From Federal Procurement and Non-Procurement Programs
        before issuing a grant.




7
 The DUNS number is a unique nine-digit number assigned by Dun and Bradstreet Information Services. It is the
universal standard for identifying and keeping track of more than 92 million businesses worldwide. Grants.gov
requires a DUNS number for registration. For applicants, the DUNS number in the application must match the
DUNS number in the Institutional Profile in the eRA Commons. The eRA Commons is a secure meeting place on
the Web where research organizations and grantees electronically receive and transmit information about the
administration of extramural construction grants. The eRA Commons allows applicants to access the status of their
applications; grantees can access the status of their awards, submit reports, and make requests electronically.



                                                      7
      NCRR policy requires the Office of Grants Management’s Grants Management Officer
       to certify that all applicable requirements for an independent, competitive review have
       been carried out before funding the grant application.

      Prior to awarding any grant, NCRR requires Office of Grants Management staff to
       review the application for indication of inadequate administrative systems and to ensure
       that applications have been approved. When necessary, particularly for new
       organizations, Office of Grants Management staff request and review grantees’
       administrative policies and financial statements.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

      Pursuant to OMB Circular A-133 and 45 CFR § 74.26, grantees that expend more than
       $500,000 in a fiscal year are required to obtain audits of their organization’s operations
       annually from independent public accountants. Additionally, NIH conducts technical site
       visits and educational outreach seminars to educate staff and to enhance administrative
       oversight of sponsored research, including extramural construction.

      NIH Grants Management Officers and Program Officials use reports, correspondence
       from the grantee, audit reports, site visits, and other available information to monitor cost
       and performance results, identify potential problems, and identify areas where technical
       assistance or enforcement action may be necessary.

      The NIH, Office of Management Assessment reviews allegations concerning
       misspending of NCRR grant funds and reports its findings to NIH management officials,
       including those in the NIH, Office of Extramural Research. Office of Management
       Assessment reports usually contain an assessment of internal controls in effect at the
       grantee organization, with recommendations for system improvements.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

      NIH maintains an agencywide security program to safeguard and secure access to
       records. The NIH Fiscal Year 2008 Improper Payments Information Act Risk
       Assessment (risk assessment) noted that security policies were updated to align with new
       OMB, National Institute of Standards and Technology, and HHS policies and guidance.
       The risk assessment also noted that the Enterprise Master Information Technology
       Security Plan, which implements relevant Federal laws, regulations, and policies, was
       recently revised. Finally, the risk assessment noted that the information technology
       security language for contracts and acquisitions compliance with the Federal Information
       Security Management Act (FISMA) and contractor security oversight was also revised.


                                               8
Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

      NIH officials told us NIH has actively addressed security issues by providing frequent
       training to staff. NIH has worked with HHS to develop role-based training for personnel
       with significant security responsibilities to comply with OMB requirements. NIH also
       recently updated its security awareness course, which is an annual requirement for all
       personnel who use information systems.

      NIH has a number of internal controls in place to ensure the safeguarding and security of
       data. NIH maintains an offsite server to provide backup and recovery of data. It
       implemented an automated Web-based application called the NIH Certification and
       Accreditation Tool that it uses for managing and tracking the inventory of information
       systems. The certification and accreditation is performed for 100 percent of FISMA
       systems, including systems that are critical infrastructure. Certification and accreditation
       ensures that safeguards are implemented effectively and commensurate with risks. NIH
       also implemented the HHS Security & Privacy Online Reporting Tool for tracking
       FISMA information.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
National Center for Research Resources Accurately and Promptly Classifies, Summarizes,
and Reports Adjustments to Grant Application Information and Records

      NCRR allows applicants the opportunity to correct errors identified during the
       application process and resubmit the corrected information through Grants.gov within a
       specified timeframe.

      When NCRR identifies an error, its policy is for the application process to immediately
       stop. The applicant is then notified of the error or given a warning. A warning alerts the
       applicant to the less-than-ideal condition. The applicant then has the opportunity to
       resubmit the application if the submission deadline date has not passed.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual to Both Cause and Conceal Errors Are Reduced

      Members of the NCRR’s Scientific Review Groups provide relevant scientific review
       experience and scientific expertise for the competitive review process.

      Grants Management Officers serve as the reception and distribution point for prior
       approval requests, progress reports, and other reports required by the terms and
       conditions of the Notice of Grant Award.


                                              9
   NCRR program officials establish or participate in the establishment of goals for new
    programs and plans of action for implementation.

   NCRR requires program officials to evaluate submissions for appropriateness to
    solicitation topics, and the Grants Management Officer determines compliance with
    policy, regulations, and guidelines.




                                         10
